Audit Report GR-70-06-001

Office of Community Oriented Policing Services Methamphetamine Initiative Grants Administered by the Vermont State Police, State of Vermont

Audit Report GR-70-06-001


November 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division has completed an audit of four Methamphetamine Initiative grants the Office of Community Oriented Policing Services (COPS) awarded to the Vermont State Police (VSP).  These 4 grants provided the VSP $2,384,106 for personnel, supplies, and other costs to reduce the production, distribution, use, and associated crime of heroin foremost, and to a lesser extent, to train police officers and provide community education outreach on methamphetamine issues.

Congress earmarked the funding for these grants specifically to:  (1) combat methamphetamine production and distribution, (2) target drug hot spots, and (3) remove and dispose of hazardous materials at clandestine methamphetamine labs.1   We determined that the VSP has thus far used these funds predominantly to target drug hot spots associated with its efforts to combat heroin statewide.  Some grant funds have also been used to address methamphetamine issues.
  
We reviewed the compliance by the VSP with eight essential grant conditions and we found weaknesses in the areas of budget management and control and grant expenditures.  We attempted to review the grantees effectiveness based on the data collection and analyses the VSP listed in its grant application.  However, we could not assess the extent the grants accomplished their intended objectives because the data needed to make that assessment was not readily available.  As a result of the deficiencies identified below, we question $1,210,767 in grant funds received by the VSP.2
The VSP:

included in its budget expenditures that are prohibited under COPS-established grant guidelines;3
made $1,183,593 in unallowable expenditures for salary and fringe benefits for law enforcement officers    these same grant expenditures are also unallowable because the grant funding supplanted, or was used in place of, local funding; 
 
	made $3,679 in grant-related overtime expenditures for employees not connected to the grant program that were not approved by COPS in the grant budgets;

	made $12,404 in expenditures for employee fringe benefits that were not approved by COPS in the grant budgets; 

	made $11,091 in, supply and administrative expenditures that were not approved by COPS in the grant budgets; and

	did not collect relevant data and develop performance measures to determine whether the grants were accomplishing their intended objectives.

During the course of our fieldwork, we learned that COPS awarded the VSP a 2005 Methamphetamine Initiative grant for $1,726,626.  Based on the results of our audit and our findings that the VSP used grant funds for unallowable purposes and to supplant local funds, we recommend that COPS ensure that this grant not be used to pay unallowable law enforcement salary and fringe benefits or supplant local funds.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.

  



Footnotes

While Congress did not define drug hot spots, the term can refer to areas where crime is statistically heavily clustered.
	The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.
	COPS approved the VSPs budgets, which included the prohibited types of costs.